         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Inspection Report
Alleged Waste and Abuse in the
Office of Economic Impact and
Diversity




INS-L-12-07                     September 2012
                                  Department of Energy
                                    Washington, DC 20585
                                       September 27, 2012


MEMORANDUM FOR THE DIRECTOR, OFFICE OF MANAGEMENT
               DIRECTOR, OFFICE OF ECONOMIC IMPACT AND DIVERSITY



FROM:                    Sandra D. Bruce
                         Assistant Inspector General
                            for Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Inspection Report on "Alleged Waste and Abuse in
                         the Office of Economic Impact and Diversity"

BACKGROUND
The Department of Energy's Office of Economic Impact and Diversity (ED) develops and executes
Department-wide policies affecting equal employment opportunities, small and disadvantaged
businesses, minority educational institutions, and historically under-represented communities. ED's
mission is to develop and implement initiatives designed to ensure that minorities are afforded an
opportunity to fully participate in Department programs.

At the beginning of Fiscal Year 2012, ED, along with other Department programs, was operating
under a Continuing Resolution (CR). As a result, funding was allocated and provided to
programs, including ED, based on expenses necessary for the practical and efficient work of the
Department. The Department's budget guidance required all Department programs to exercise the
utmost caution and prudence in spending during the CR.

The Office of Inspector General received a complaint alleging that ED had engaged in wasteful
spending, including: (1) the approval of a $40,000 construction project to expand a senior
official's office space even though a large vacant office existed; (2) the purchase of Liquid
Crystal Display Televisions (LCD TVs) for select ED officials to reflect a higher status; (3) the
purchase of iPads for senior ED officials to reflect a higher status; (4) a $50,000 pool of "fun
money" to "shower someone with a good idea;" and, (5) the use of high-cost limousine services
while on travel. We initiated this inspection to examine the facts and circumstances surrounding
the allegations.

CONCLUSIONS AND OBSERVATIONS

We were unable to substantiate the allegations that the actions taken by ED management were
inappropriate. While we did determine that a senior official approved the reconfiguration of ED
office spaces, the construction project did not appear to be unreasonable or excessively costly.
We did, however, identify procedural issues that could, if not addressed, increase the risk that
projects could begin and be completed even though funding had not actually been authorized.
Office Suite Construction

Officials from ED told us that they had taken action to reconfigure office spaces, at a cost of
approximately $40,000, for the following reasons:

     • Some of ED's office space was lost to the Office of Energy Efficiency and Renewable
       Energy during the summer of 2010;

     • A new ED Director was nominated in August 2011 and office space needed to be
       allocated for the new Director;

     • A new ED Office of Diversity and Inclusion was created; and,

     • ED staff needed to be aligned with their respective Directors.

The Department’s Office of Management (MA), Space Management (Space Management),
reviewed and approved ED’s construction request. The request included $7,850 for carpet
installation, which is discussed in this report. Given the circumstances, the reconfiguration
decision appeared to be a matter to be within management’s discretion and was not unreasonably
costly. We did note, however, that certain administrative processes regarding project approval
and funding allocation were not properly completed prior to commencement of construction.

                                             Internal Authorization Process

We determined that ED did not follow its internal practice requiring the requesting official to prepare
an internal Funding Authorization Memorandum (FAM) for the construction work. The FAM is
required to contain the funding amount, fund code and description, to include the requestor's
justification for the expenditure and the respective ED senior official's approval. Instead; a senior
official emailed an ED budget staff member with a courtesy copy to another ED senior official to
approve funding for the office construction. We also determined that the email did not contain a
justification for the construction, fund code, or an authorized senior ED official's approval. Further,
we observed that ED prepared a FAM for the carpet purchase and installation valued at
approximately $7,850. However, ED did not receive the approving official's signature. These
procedural deviations could result in unauthorized expenditures.

                                             Procurement Process

We determined that Space Management inappropriately authorized the contractor to begin
construction without receiving prior approval from the Office of Headquarters Procurement
Services (Procurement) to award an Order for Supplies and Services (Order) as required. 1 Space
Management awarded a two-year Indefinite Delivery Indefinite Quantity (IDIQ) construction
contract valued at approximately $4 million to perform construction and alteration projects
1
 An Order for Supplies and Services serves as a task order for services or a delivery order for supplies placed against
an established contract.

                                                          2
within the Department. According to the Federal Acquisition Regulation (FAR) 52.216-22,
Indefinite Quantity, and the terms of the base contract, only a Department Contracting Officer (CO) is
authorized to issue an Order. Our review of the contract and related procurement documents revealed
that Space Management issued a requisition to Procurement that established funding, authorization
and a timeframe for the construction. Space Management notified the contractor to begin work on
November 10, 2011. The contractor completed ED's construction between November 11, 2011, and
November 16, 2011. However, we determined that Procurement did not award the Order for the
contractor to start work until November 30, 2011 – 14 days after the completion of ED's office
construction.

Also, contrary to FAR requirements, we noted that verbal authorization and delegations were given to
the Contracting Officer's Representative (COR) to task the contractor to start work. During our
interview with a senior Space Management official, who is also the COR, we were informed that it
was Space Management's practice, based on a verbal authorization and delegation from the CO, to
task the contractor to begin work upon sending a requisition to Procurement. The Space Management
official told us that this process helped to eliminate any potential backlog due to the high construction
and alteration demands throughout the Department. In a meeting with MA officials regarding a
draft of this report, they indicated that ED officials wanted the construction and related work
expedited, resulting in reducing the procurement process from 30 days to 1 to 2 days. However,
it was not MA's practice to task the contractor to begin work prior to sending a requisition to
procurement. MA officials also told us and we confirmed that on November 10, 2011, Space
Management officials sent procurement officials a requisition establishing the funding, costs, and
scope of work. MA officials further indicated that upon receipt of the requisition, they
determined that the CO provided a verbal authorization to the contractor to start work. During
our discussion with the CO, the CO could not recall if a verbal authorization or delegation was
made to the contractor or to the Space Management official to notify the contractor to begin
work. However, the CO told us, in practice, that if the requisition was provided and funding was
received it was not unusual to give verbal approval to the COR to notify the contractor to start
construction on expedited or emergency projects. Nevertheless, FAR and the terms of the base
contract require the CO to formally issue Orders to start work, including faxing an Order to the
contractor on the next Government business day.

MA officials indicated that they are reviewing and updating its processes as necessary. They
also told us that within the next 90 days, the Office of Administration will conduct mandatory
training to ensure that employees maintain knowledge of relevant procurement policies and
procedures. In addition, Space Management immediately addressed this issue by developing
draft procedures indicating that contractors will be notified to start construction only after
receiving email notification from Procurement that the Order has been awarded. The draft "IDIQ
Work Flow Process" and the mandatory training should assist with ensuring that the appropriate
officials (COs) are notifying the contractor to perform a task.

Electronics, Limousine Service and "Fun Money"

We did not substantiate the remaining allegations. Specifically, we received a number of
explanations and rationale concerning the business purposes for the LCD TVs and iPads.

                                                   3
Additionally, we concluded that ED officials did not incur additional costs to the government by
using a limousine service instead of a taxi or a shuttle service. We also were unable to substantiate
that ED created a pool of $50,000 for "fun money." Specifically, these officials stated that they had
not established a pool of money. We concluded that generally costs were de minimis and the various
justifications used for the use of a limousine service and the electronics purchases appeared to be
legitimate.

IMPACT

Inappropriately tasking the IDIQ contractor could potentially expose the Department to claims
resulting in administrative unfunded requirements. Specifically, any modification to the scope of
work between the contractor and Space Management may increase potential risk of a contractor
performing work outside of the original scope, which could lead to additional cost other than
authorized by an Order. We believe that Space Management has taken an initial step to ensure that the
Order is provided to the contractor prior to the start of construction. We made several suggestions
designed to help ensure that similar authorization and funding issues do not recur.

SUGGESTIONS

We suggest that the Director, Office of Economic Impact and Diversity:

      1. Ensure that ED's internal practices are implemented and that the Funding Authorization
         Memo justifying and approving goods and services is properly prepared and executed.

We suggest that the Director, Office of Management ensure that:

      2. The Contracting Officer is issuing appropriate written approval for the task order to
         the contractor prior to construction; and,

      3. Space Management and Procurement officials are aware of the procurement policies
         and procedures related to tasking the contractor.

No formal recommendations are being made and, as such, no response is required.

Attachment

cc:    Deputy Secretary
       Associate Deputy Secretary
       Under Secretary for Energy
       Chief of Staff




                                                  4
                                                                                         Attachment 1


                        OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this inspection was to examine the facts and circumstances surrounding the
allegation that the Department of Energy's (Department) Office of Economic Impact and Diversity
(ED) had a number of instances of wasteful spending concerning: (1) the approval of a $40,000
construction project to expand a senior official's office space although a large vacant office
existed; (2) the purchase of Liquid Crystal Display Televisions for select ED officials to reflect a
higher status; (3) the purchase of iPads for senior officials to reflect a higher status; (4) a $50,000
pool of "fun money" to "shower someone with a good idea;" and, (5) the use of high-cost
limousine services while on travel.

SCOPE

This allegation-based inspection was conducted between February 2012 and September
2012 at Department Headquarters in Washington, DC.

METHODOLOGY

To accomplish the objective, we:

    • Interviewed Department officials from ED, the Office of Budget, Office of Headquarters
      Procurement Services, Office of Management Space Management, Office of Management
      Property Management, and Office of Management Travel Services; and,

    • Reviewed and analyzed applicable Federal and Department regulations, directives,
      policies and procedures for continuing resolution, construction, procurement, travel and
      budget; and relevant construction, procurement, budget and travel documentation.
We conducted this allegation-based inspection in accordance with the Council of the Inspectors
General on Integrity and Efficiency's Quality Standards for Inspection and Evaluation. Those
standards require that we plan and perform the inspection to obtain sufficient, appropriate
evidence to provide a reasonable basis for our conclusions and observations based on our
inspection objective. We believe the evidence obtained provides a reasonable basis for our
conclusions and observations based on our inspection objective. Accordingly, the inspection
included tests of controls and compliance with laws and regulations to the extent necessary to
satisfy the inspection objective. Because our review was limited, it would not necessarily have
disclosed all internal control deficiencies that may have existed at the time of our inspection.
Finally, we relied on computer-processed data, to some extent, to satisfy our objective. We
confirmed the validity of such data, when appropriate, by reviewing source documents.

An exit conference with the Office of Economic Impact and Diversity was waived. Further, an
exit conference was held with the Office of Management on September 26, 2012.




                                                   5
                                                                         IG Report No. INS-L-12-07




                               CUSTOMER RESPONSE FORM
I   The Office of Inspector General has a continuing interest in improving the usefulness of its
    products. We wish to make our reports as responsive as possible to our customers' requirements,
    and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
    you may suggest improvements to enhance the effectiveness of future reports. Please include
    answers to the following questions if applicable to you:

        1. What additional background information about the selection, scheduling, scope, or
           procedures of the audit or inspection would have been helpful to the reader in
           understanding this report?

        2. What additional information related to findings and recommendations could have been
           included in the report to assist management in implementing corrective actions?

        3. What format, stylistic, or organizational changes might have made this report's overall
           message more clear to the reader?

        4. What additional actions could the Office of Inspector General have taken on the issues
           discussed in this report that would have been helpful?

        5. Please include your name and telephone number so that we may contact you should we
           have any questions about your comments.


    Name                                          Date

    Telephone                                     Organization

    When you have completed this form, you may telefax it to the Office of Inspector General at
    (202) 586-0948, or you may mail it to:

                                   Office of Inspector General (IG-1)
                                         Department of Energy
                                        Washington, DC 20585

                                      ATTN: Customer Relations

    If you wish to discuss this report or your comments with a staff member of the Office of
    Inspector General, please contact our office at (202) 253-2162.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
